Supreme Court, U.S.
FILED

OCT 2 8 2020

No.

-5^

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

RICHARD S. BERRY, PETITIONER
vs.
STATE BAR OF ARIZONA, RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE STATE OF ARIZONA

PETITION FOR WRIT OF CERTIORARI

Richard S. Berry
Box 26222
Tempe, AZ 85285
480/966-0926
berrs2@cox.net
Petitioner Pro Se
October 28, 2020

QUESTIONS PRESENTED
IS A COURT RULE DEFINING AND PROHIBITING THE
A)
UNAUTHORIZED PRACTICE OF LAW (“UPL”) AN UNCONSTITU­
TIONAL ABRIDGMENT OF COMMERCIAL SPEECH WHEN a) IT IS
VAGUE AND OVERBROAD AND b) IT FOSTERS NO “SUBSTANTIAL
STATE INTEREST” fBates v. State Bar of Arizona. 433 U.S. 350 (1977)]
WHEN THE CHARGING OF A FEE IS BY THE RULE THE SOLE
DETERMINANT IN FINDING UPL EXTANT IF THE FEE IS PAID TO A
NONLAWYER AND NOT A LAWYER?
B)
WHILE A STATE MAY LEGISLATIVELY MONOPOLIZE A
MARKET FOR A SERVICE (HERE, LIMITING RENDITION OF LEGAL
SERVICES TO MEMBERS OF A BAR), MAY THE BAR POLICE UPL
WHERE THE MEMBERSHIP OF THE GOVERNING AGENCY ARE
PRACTICING LAWYERS IN COMPETITION WITH THE NONLAWYERS
TO BE REGULATED rNorth Carolina State Board of Dental Examiners v.
FTC. 574 U.S.___, 135 S. Ct. 1101 (2015)]?

1

LIST OF PARTIES
The parties are:
Richard S. Berry, petitioner
The State Bar of Arizona, respondent

RELATED CASES

None.

JURISDICTION
The date on which the last state court ruled in this matter (the Arizona
Supreme Court) was July 29, 2020, Appendix C. No motion for rehearing,
was filed, and none is required by state law to exhaust state court remedies.
The date on which the last state court ruled on the merits was March
18, 2020 (the Arizona state court of appeals), Appendix B. Timely review was
sought from that opinion to the Arizona Supreme Court, which denied review
without opinion, Appendix C.
The trial court judgment is Appendix A.
The jurisdiction of this court is invoked under 28 U.S.C. 1257(a).

2

TABLE OF CONTENTS

\

Page
Questions Presented

1

List of Parties

2

Related Cases

2

Jurisdiction

2

Table of Contents

3

Index to Appendices

4

Constitutional and Statutory Provisions Involved

4

Table of Authorities Cited

5

Opinions Below

7

Petition

8

Statement of the Case

8

Reasons for Granting the Writ

12

Conclusion

21

3

INDEX TO APPENDICES
Trial Court judgment/opinion

Appendix A

Arizona Court of Appeals

Appendix B

Arizona Supreme Court

Appendix C

Rule 31, Arizona Supreme Court

Appendix D

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
First Amendment, U.S. Constitution (Freedom of Speech)
Fourteenth Amendment, U.S. Constitution (Due Process)
Supremacy Clause, U.S. Constitution
Rule 31 of the Rules of the Arizona Supreme Court

4

TABLE OF AUTHORITIES
Page
CASES
Bates v. State Bar of Arizona. 433 U.S. 350 (1977)
Broadrick v. Oklahoma. 413 U.S. 601 (1973)

9,12, 16
10,13

Bvers-Watts v. Parker. 199 Ariz. 466, 18 P.3d 1265
(App. 2001) as amended

14

Central Hudson Gas & Electric Corp. v. Public Service
Commission of New York. 447 U.S. 557 (1980)

16

In re Estate of Shumwav. 197 Ariz. 57, 3 P.2d 977
(App. 1999) rev. gr. in part, opin. vac. in part
o.o.g., 198 Ariz. 323, 9 P.3d 1062 (2000)

14,15

In re Gabrielson. 217 B.R. 819 (Bkrtcy.D.Ariz. 1998)

15

Kadota v. Hosaaai. 125 Ariz. 131,608 P.2d 68 (App.
1980)

14

North Carolina State Board of Dental Examiners v.
FTC. 574 U.S. _ , 135 S. Ct. 1101, 191 L
Ed. 2d 35 (2015)
9,10,11,18,19,20
Parker v. Brown. 317 U.S. 341 (1943)

10

STATUTES AND RULES
Arizona Supreme Court Rule 31

passim

Arizona Supreme Court Rule 31(a)(2)(A)
Arizona Supreme Court Rule 31(d)

5

12-17
13,14,16,17

Arizona Supreme Court Rule 31 (d)(24)

14

Arizona Supreme Court Rule 32 (e)

19

Arizona Supreme Court Rule 75

11

Arizona Superior Court Rule 17

14

Arizona Code of Judicial Administration, sec. 7-208(A)

15

Arizona Supreme Court R-20-0034, “Petition to Restyle
and Amend Rule 31 . .effective Jan. 1,2020
9,18, 20

9

11 U.S.C. 111
18 U.S.C. 16(b)
28 U.S.C. 1257(a)
OTHER
Bennett, Arbitration: Essential Concepts. May, 2002

15

McCarter, “The ABA’s Attack on ‘Unauthorized’ Practice of Law
and Consumer Choice”. Federalist Soc. For Law and
Pub.Pol Studies, May, 2003
18
Pearce, “The Professional Paradigm Shift: Whv Discarding
Professional Ideology Will Improve the Conduct and
Reputation of the Bar”. 70 N.Y.U.L.Rev.1229
18
Restatement (Third) of the Law Governing Lawyers. 4
cmt. c
Shely, “From Bates to Blogging; 40 Years of Lawyer
Advertising”, Arizona Attorney. Dec., 2017

6

12,15

16

OPINIONS BELOW
An Arizona state trial court found Petitioner guilty of the Unauthorized
Practice of Law (“UPL”) on an Arizona State Bar Complaint in state superior
court for violation of Arizona Supreme Court Rule 31, in a trial without a jury.
This decision is unpublished; it is Appendix A.
The Arizona Court of Appeals, in a decision by the highest state court
on the merits, affirmed that trial court order finding Petitioner guilty of the
UPL, on March 18, 2020. See Appendix B. The opinion is unpublished.
The Arizona Supreme Court denied review of the Arizona Court of
Appeals without opinion or review of the merits on July 29, 2020. See
Appendix C. The denial of review is unpublished.

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review and
vacate the judgments of the state courts of the State of Arizona.

STATEMENT OF THE CASE
Defendant was disbarred 43 years ago by the Arizona Supreme Court. In
1989, when there was no Arizona rule or statute defining UPL, an earlier statute
forbidding UPL sunset in 1985, Petitioner set up an independent paralegal
business and firm, complete with a federal trade name [“Why Pay A Lawyer?”
(“WPAL”)]. Its purpose was to provide to the general public, without employing
a lawyer, help with basic legal services and forms such as divorce, eviction,
wills, etc.

WPAL charges fees for its customers, who opt to appear pro se in

court (if the service involves a court), or in their doing their own legal work, fees
that are generally much less than those charged by a licensed attorney for the
same legal work.
In 2003, the Arizona Supreme Court promulgated Rule 31 (Appendix D)

8

defining the “practice of law” and UPL. (The Rule as enforced here as in
Appendix D has been modified, effective January 1,2020; see Arizona Supreme
Court R-20-0034, “Petition to Restyle and Amend Rule 31 . .

the revisions are

immaterial to the issues in this petition.) The Bar sued petitioner below for
committing UPL under that Rule in 2017.
The trial court found defendant guilty on four UPL claims. Appendix A.
Petitioner posited as defenses to these UPL claims the two constitutional Ques­
tions Presented above, among other defenses not here material. As to the first
issue (unconstitutional vagueness and speech abridgement by Rule 31 under
Bates, infra) the trial court found no vagueness or improper abridgement. As to
the second Question Presented (NCDental. infra), the trial court did not rule.
The four claims of UPL substantively involved a) WPAL drafting and
mailing a “cease and desist” type letter for a customer in 2013, b) drafting a
form promissory note complaint for an Arizona superior court filing (trial court
level court), c) reviewing with the ultimate filer bankruptcy pleadings typed by
another nonlawyer (the State Bar bought no charge under 11 U.S.C. 111, and
the trial court did not rule under that statute), and d) discussing and advising a
landlord as to an eviction need and action. The trial court held petitioner in
contempt and ordered him (for WPAL) to repay approximately $950, total, to

9

some of the above customers.
The Arizona Court of Appeals (Appendix B) found petitioner’s acts of UPL
to fit “squarely within the ‘hard core’ of the statute’s proscription”, citing and
quoting Broadrick v. Oklahoma. 413 U.S. 601,608 (1973), Appen. B at para. 10
and thus determined that defendant could not avail himself of any “overbroad
and vague”, id-, “exemption” or argument of vagueness or overbreadth.
As to the second Question Presented above, the state court of appeals
refused to apply North Carolina State Board of Dental Examiners v. FTC. 574
U.S.

, 135 S. Ct. 1101, 191 L.Ed. 2d 35 (2015) (“NCDental”),which held that

when a state controls a market, it may do so, i.e., enable a monopoly, only [see
Parker v. Brown. 317 U.S. 341,350-1 (1943)] a) by delegating control of the
market to an agency (in this case, a non-sovereign actor such as the State Bar),
but only b) if the controlling agency or actor is “actively supervised by the
[s]tate”, quoting other cases citing Parker (see, para. 12, Appen. B). Incredibly,
on facts nowhere argued by either Petitioner nor the Bar, the state court of
appeals found that petitioner’s NCDental argument was raised against the
members of the Arizona Supreme Court (para. 15, kL) as supposed active
practitioners of law, and not the Bar’s board members as practicing lawyers
which as a board is the governance in enforcement of Rule 31 UPL matters (see

10

Arizona supreme court Rule 75ff), and that since the members of the Court itself
were “not engaged in the practice of law”, NCDental did not apply. No one,
certainly not Petitioner, had ever argued that in the lower court or the court of
appeals briefing. There has never been a NCDental analogy made to the
Arizona Supreme Court members. Obviously, it was the bar’s governance to
which the NCDental argument was directed and not the members of the state
supreme court.
Petitioner appealed in the state courts only the constitutional aspects of
the case; he did not appeal on the sufficiency of the evidence at trial on the four
instances of UPL. See Appen. B, paras. 7-8.
The Arizona Supreme Court denied review, a discretionary review
proceeding under Arizona law, of the Arizona Court of Appeals’ opinion on the
merits without any opinion on the merits. Appendix C.
All Questions Presented here were raised in the trial court by summary
judgment prior to trial (which the trial court declined to rule upon), and by motion
for directed verdict during trial (which the trial court denied), and in the brief of
Petitioner (appellant there) to the state court of appeals.

11

REASONS FOR GRANTING THE PETITION
a) Arizona Supreme Court Rule 31 (Appendix D) is out of constitutional
and rational step with established law and, frankly, the times and the legal
needs of society. It restricts speech commercially, but entirely without any
legitimate state interest to serve save to assure lawyers’ fees (witness that one
half of the exceptions in the Rule already exceptions if a nonlawyer seeks a fee
for performing the service). The constitutional precepts of state regulation of
commercial speech in a legal context were established in Bates v. State Bar of
Arizona. 433 U.S. 350 (1977) sit four square here and oblige the intervention of
this Court.
No one today can make an intelligent case for outlawing the commercial
speech as done by Rule 31. The definition of “the practice of law” (“POL”) in
Rule 31(a)(2)(A) is arbitrary, irrational, conclusory and tautological. The
Restatement (Thirdl of the Law Governing Lawyers. 4, cmt. c, concludes that
“[t]he definitions and tests employed by courts to delineate
unauthorized practice by non-lawyers have been vague or
conclusory, while jurisdictions have differed significantly in
describing what constitutes unauthorized practice in particular
areas.”
In this case, the vagueness and overbreadth is enhanced when on its
face, the Rule, has half its exemptions turn on whether a fee is charged by a

12

nonlawyer! The Rule’s exceptions are in subsection d) and baldly state that
the distinguishing fact in finding UPL or not is only if a “fee” (or “compensation”
in the 2020 amendment of the Rule) is to be paid, and if, so it has to go into the
pocket of a lawyer.

There is no compelling commercial policy advanced by this

paternal protection of legal fees to be reaped by lawyers that could be said to be
a compelling or legitimate state interest.
b) Guaranteeing lawyers’ fees aside, Rule 31(a)(2)(A)’s language
defining POL is so broad and inclusive that 31 exceptions at subsection 31 (d)
are needed to restrain the Rule’s reach to matters but for section d)’s express
exceptions would otherwise be POL on the broad express language in the
(a)(2)(A) definition. The definition of the POL at (a)(2)(A) catches far more
activity for fear of UPL than the Bar generally or (a)(2)(A) wanted to be
commercially or reasonably included. Hence, multiparagraphed subsection d).
That is quintessential over-breadth and vagueness. Broadrick v. Oklahoma.
413 U.S. 601 (1973). Nowhere in the law has there been found any state
licensing system that turns on whether a fee is paid or not, and one that has to
have 31 exceptions to ferret out what is verboten and what is not.
c) But it is worse. All of the subsection d) exceptions are not on the list of
31. For example-

13

I)

John Blackacre is an elderly man with a senile wife. He has

been made her guardian. Both are titleholders to a townhouse. Blackacre has
been aggrieved by the HOA administering the townhouse. He writes a letter of
demand for himself and his wife complaining to the HOA. Can he sign the
demand for her as the co-owner, or as guardian?. Likely not. Bvers-Watts v.
Parker. 199 Ariz. 466, 18 P.3d 1265 (App. 2001), as amended; Kadota v. Hosaaai. 125 Ariz. 131,608 P.2d 68 (App. 1980). While his guardianship may allow
him to be a party to a suit for her (Rule 17, Arizona Superior Court), he cannot
do legal work for her-such as write a letter of demand. Rule 31 (a)(2) (A).
II) In re Estate of Shumwav. 197 Ariz. 57, 3 P.2d 977 (App. 1999)
rev. gr. in part, opin. vac. in part o.o.g., 198 Ariz. 323, 9 P.3d 1062 (2000), held
that a nonlawyer can prepare a will, and that is not POL. Preparing a will is not
referenced in 31(d), but Rule 31(a)(2)(A)’s language envelops that activity as
POL. There is not much money to be made in drawing a will, however.
Lawyers know this. (The largest pre-paid legal firm in Arizona gives a free will
for the price of joining the plan or doing other initial work.) Since little is
typically charged for a will, so it would seem, the bar grants a pass here to allow
nonlawyers to prepare wills. (WPAL has prepared about two wills a week for 30
years, without complaint by anyone, including respondent bar.)

14

Ill) There is in Arizona the office and profession of Certified Legal
Document Preparer, created in Rule 31(d)(24). A CLDP cannot practice law, of
course [Rule 31(a)(2)(A)], but in the balance of the overall rule there is no
demarcation between POL and UPL as to what a CLDP can do [and we know
that a CLDP cannot even decide what goes into a blank in a bankruptcy form,
see In re Gabrielson. 217 B.R. 819 (Bkrtcy.D.Ariz. 1998), another case involving
petitioner here]. A CLDP can charge a fee, of course, but for what? Just
typing? Was not the office of CLDP created to enable some POL? See Arizona
Code of Judicial Administration, sec. 7-208(A) wherein the office of CLDP is
created “to prepare or provide legal documents without the supervision of an
attorney for. . . the pubic who is engaging in self representation.”. WPAL
employs a CLDP.
IV) Suppose free legal advice is given by a neighbor (say, a lawyer
retired to Arizona) to an Arizona resident over their mutual back fence. That is
UPL. What if the recipient of the advice promised to paint the advice-provider’s
house in return for him for the legal advice. That is really UPL-painting costs
money; someone unlicensed in Arizona thus got paid for POL. What about just
taking the unlicensed neighbor to lunch-much less payment--to repay his
kindness? If it is a minimal amount paid, would the bar and court administration

15

of the Rule be ignored?. In re Estate of Shumwav. supra.
V) Rule 31 includes arbitration participation as POL, when it is
generally accepted that arbitration participation is not UPL. See Restatement
(Third) of the Law Governing Lawyers, sec. 4 (cmt c), Bennett, Arbitration:
Essential Concepts. May, 2002, pgs. 175-8.
d) Bates v. State Bar of Arizona. 433 U.S. 350 (1977) held that lawyer
advertising is commercial speech, protected by the First Amendment, and that a
state cannot ban that type of speech. Rules 31 (a)(2)(A), 31 (a)(2)(B), and 31(d)
regulate commercial speech without any compelling state policy interest to be
served. As discussed in Bates, the constitutionality of that regulation turns on
whether the regulation, or ban on the speech advances a substantial state
governmental interest. Bates found all sorts of beneficial, societal benefits to
enable lawyers to advertise. Rule 31 fails constitutional muster since it can
claim no such laudatory impact on society with UPL proscription. Preserving
lawyers’ fees is without any significant societal importance or governmental
interest constitutionally. The practice of law, certainly today, is a business, pure
and simple. Lawyers’ fees should be set in the marketplace.
Consistent with Bates is Central Hudson Gas & Electric Coro, v. Public
Service Commission of New York. 447 U.S. 557 (1980), which held that

16

“government restraints on commercial speech ... should be narrowly tailored to
advance a substantial government interest” (holding summarized in Shely,
“From Bates to Blogging; 40 Years of Lawyer Advertising”, Arizona Attorney.
Dec., 2017, p. 30). Central Hudson declared violative of the First and
Fourteenth Amendments a regulation completely banning advertising by a
utility. ]d. at 558. Rule 31 is also a complete ban. Since Rule 31's policy falls,
and fails, under Central Hudson not Bates, it should be constitution-ally banned.
e) Rule 31 merely protects fees and insures a monopoly. Rule 31
construed as a whole is meant to create a monopoly for lawyers by jettisoning
certain “small” acts with little fee upside from what is otherwise POL by
definition, and the logic of the definition. If the client pays a fee, small act or not
however, that act is POL if not done by a lawyer. Of the 31(d) exceptions, 14
are only exemptions to POL if no fee is charged for the act done. If the actor
charges a fee, UPL occurs unless the actor is a lawyer (who can charge that
fee). If the actor charges no fee, the activity is not UPL whether done by a
lawyer or not. Charging a fee is a criterion having no relevance logically or
grammatically in POL; see 31 (a)(2)(A). While earning a fee is not even part of
the POL definition, that is what Rule 31 substantively promotes-fees for only
lawyers, and no one else.

17

Judge Richard Posner has criticized UPL codification as an attempt to
perpetuate a monopoly to the disadvantage of consumers. He has observed
that the legal profession is a “cartel of providers of services relating to society’s
laws” which cartel’s focus is to restrict entry into providing even basic legal
services. See McCarter, “The ABA’s Attack on ‘Unauthorized’ Practice of Law
and Consumer Choice”. Federalist Soc. For Law and Pub.Pol Studies, May,
2003.
The practice of law is societally changing. Law is a business as much
as a profession, nay, today even morese. See Pearce, “The Professional Para­
digm Shift: Whv Discarding Professional Ideology Will Improve the Conduct and
Reputation of the Bar”. 70 N.Y.U.L.Rev. 1229. Witness the recent proposed
changes in Arizona Supreme Court R-20-0034 (effective 1-1-20), “Petition to
Restyle and Amend Rule 31 . . .” which literally creates an entirely new type of
business entity to engage in POL (read, fee splitting, and another exemption)
without being UPL within the POL definition in Rule 31. Rule 31 is outside the
First Amendment under any analysis.
f) The second question presented for review is the application of North
Carolina State Board of Dental Examiners v. Federal Trade Commission. 574
U.S.

, 135 S. Ct. 1101, 191 L.Ed. 2d 35 (2015) (NCDentah to bar govern-

18

ance, which case, applied, renders Rule 31 enforcement unconstitutional. The
Arizona trial court should have dismissed the entire case for lack of procedural
due process for violation of antitrust law as prosecuted by the bar governance
as now constituted.
NCDental found violative of federal antitrust law governance by a state
agency of competitors when the agency’s professional members in governance
consisted of “active participants” in the same profession as those being
governed. UPL enforcement under Rule 31 violates antitrust law for the same
reason.
By Arizona Supreme Court Rule 32(e), the state bar is governed by a
Board of Governors, 26 of them, 19 of whom must be “active members” of the
state bar, meaning, of course, that they are actively involved publically in POL.
This Board thus supervises UPL by other “active market participants” (nonlaw­
yers) who may act in competition with Bar members. There can be no question
the Bar as now governed, and in how Rule 31 works in determining UPL, anticompetitively, and under NCDental. is violative of the constitution and antitrust
law with such parochial policing for UPL. NCDental is, of course, applicable to
this state under the Supremacy Clause. There is no exception for any
“profession” under the “Clause”. As is said in NCDental:

19

“When a State empowers a group of active market participants to
decide who can participate in its market, and on what terms, the
need for supervision is manifest.”
NCDental. case syllabus, para. b(3)].
NCDental recognized that certain monopolistic activities of a state can
exist in a federalist system, and be farmed out to an administrative agency.
There must be “realistic assurance”, however, that the agency’s noncompetitive
conduct “promotes a [legitimate] state policy, rather than merely the [regulating]
party’s individual interests.” NCDental. syllabus, para. c. Here, the only policy
served, as Rule 31 is now phrased, is to safeguard lawyer income and eliminate
competition. There is no redeeming state policy at all for Rule 31. Without a
“redeeming policy”, NCDental prohibits this conflicted governance. The Rule in
providing UPL governance renders sacrosanct the POL, and does so antisocietally and unreasonably

20

CONCLUSION
Arizona Supreme Court Rule 31 is concerned not with POL but only, if
someone other than a lawyer is to make a dollar at what is spoken or written
placing that act or word within a POL definition to assure that a lawyer gets the
lucre for doing it. Just as medical doctors learned to first live with osteopaths,
and then both learned to live with chiropractors, and all three learned to live with
naturopaths, all survived, and all have distinct parts of the medical market,
engendering the privilege in the public of allowing a choice in who renders the
service. No one can seriously contend that the doctrine of UPL, codified in Rule
31, is not constitutionally vague, overbroad. It supports only a policy of
monopoly, and not any commercially reasonable public policy.
This court should take review. It should vacate the opinion of the Arizona
court of appeals, vacate the trial court’s judgment and remand. UPL has no
place in a modern society. Particularly does it have no place when it is based
solely on the premise that only a lawyer must have a fee if whatever speech is
uttered, if when paid for by the service’s recipient, could be defined as POL That
is what now exists under Arizona Supreme Court Rule 31.
Apart from the above, NCDental is indistinguishable from the case at bar.

21

There is nothing about a dental disciplinary board that is not also true of a state
bar association on the facts here. If nothing else, this court should vacate and
remand for want of a disciplinary process that comports with procedural due
process and oust the legal fox from the public’s henhouse.
Dated this Z?dav of October, 2020.

Richard^. Berry
Befendant/AppellanUFro Se

22

